Audit of Regional Activities Administered by
USAID’s Bureau for Latin America and the
Caribbean

Audit Report No. 1-598-04-007-P

June 04, 2004




                San Salvador, El Salvador
June 04, 2004

MEMORANDUM

FOR:            Director LAC/RSD, Cecily Mango

FROM:           RIG/San Salvador, Steven H. Bernstein

SUBJECT:        Audit of Regional Activities Administered by the Bureau for Latin
                America and the Caribbean (Report No. 1-598-04-007-P)


This memorandum is our report on the subject audit. In finalizing this report, we
considered your comments on our draft report and have included your response in
Appendix II.

This report contains one recommendation for your action. Based on your comments and
actions taken, part A of the recommendation is closed upon issuance of this report and a
management decision has been reached for part B of the recommendation. A determination
of final action will be made by the Bureau for Management’s Office of Management
Planning and Innovation (M/MPI/MIC).

Once again, thank you for the cooperation and courtesy extended to my staff throughout the
audit.




                                                                                    1
This page intentionally left blank.




                                      2
Table of   Summary of Results                                                          5
Contents
           Background                                                                  6

           Audit Objectives                                                            7

           Audit Findings                                                              7

                  What regional activities were funded by the Bureau for Latin
                  America and the Caribbean?                                           7

                  How was the Bureau for Latin America and the Caribbean
                  managing its regional activities and what responsibilities for
                  management have been assigned to others?                         12

                  Did the Bureau for Latin America and the Caribbean ensure
                  that financial audits were conducted for its centrally funded
                  awards to non-U.S. based recipients in accordance with
                  USAID policies?                                                  15

                            Financial Audit Policies Were Not Followed             16

           Management Comments and Our Evaluation                                  17

           Appendix I – Scope and Methodology                                      19

           Appendix II – Management Comments                                       21

           Appendix III – Activities Funded By LAC Bureau as of
                          March 2004                                               25




                                                                                   3
This page intentionally left blank.




                                      4
Summary of   The Regional Inspector General/San Salvador conducted this audit to determine
Results      what regional activities were funded by the Bureau for Latin America and the
             Caribbean (LAC)1; how the LAC Bureau managed its regional activities and what
             responsibilities were assigned to others; and whether the LAC Bureau ensured
             financial audits were conducted for its centrally funded awards to non-U.S. based
             recipients in accordance with USAID policies (page 7).

             The activities funded by the LAC Bureau supported eight strategic objectives:
             Health, Regional Democracy Initiatives, Market Access, Environmental, Program
             Development and Learning, Advancing Development Cooperation Opportunities
             in the Hemisphere, Conservation of Biological Resources, and Education and
             Training Improvement (page 7).

             The LAC Bureau managed and monitored its activities through four phases:
             planning, awarding, implementing, and reporting/monitoring. The responsibilities
             for management for each strategic objective were primarily assigned to the team
             leaders and Cognizant Technical Officers as well as to the LAC missions and
             other USAID Bureaus for consultation purposes. Occasionally, independent
             contractors were assigned monitoring and evaluation responsibilities, but they
             reported directly to the team leader and/or the Cognizant Technical Officer. As
             part of the reporting/monitoring phase, the LAC Bureau utilized data quality
             assessments, work plans, performance monitoring plans, progress and financial
             reports, and performed site visits (page 12).

             The LAC Bureau did not ensure that financial audits were conducted for its
             centrally funded awards to non-U.S. based recipients in accordance with USAID
             policies (page 15).

             We made one recommendation to address the lack of financial audits discussed in
             this report. We recommended that the Bureau for Latin America and the
             Caribbean: (a) send the two audit reports received to the Office of Inspector
             General and (b) obtain fund accountability audit reports for the four organizations
             that have not conducted audits for fiscal years 2002 and 2003 and submit those
             audit reports to the Office of Inspector General (page 17).

             The LAC Bureau agreed with the recommendation in this report and has taken
             action on part A of the recommendation, therefore, part A of the recommendation
             is closed upon issuance of this report. A management decision has been made for
             part B of the recommendation (page 21).




             1
                 All mention of the Bureau for Latin America and Caribbean in this report is limited to LAC regional activities managed
                 by the Office of Regional Sustainable Development, and the Strategy and Program Office.


                                                                                                                               5
Background   Over the last several years, the Latin America and the Caribbean (LAC) region
             has faced increasing development challenges. Insufficient economic growth rates,
             growing unemployment, extensive poverty, and skewed income distribution
             continue to undermine the economic and political stability of the region.

             The purpose of the LAC regional program was to support and strengthen critical
             U.S. national interests in the LAC region that are beyond the scope of the bilateral
             and sub-regional programs. U.S. foreign policy interests in the region include
             fostering peace, stability, economic prosperity, and reducing illegal immigration
             and the flow of narcotics to the U.S. The LAC regional program supports these
             objectives by promoting free trade and equitable economic growth, strengthening
             and consolidating democracy in the region, fostering responsible management of
             the natural resource base, and promoting quality education and health care.

             USAID implements bilateral programs in 16 LAC countries, has three sub-
             regional programs (Eastern Caribbean, Central America, and the Andean region
             of South America), and has a LAC-wide regional program managed by the Office
             of Regional Sustainable Development, based in Washington, D.C. At all levels,
             these programs coordinate and interact with host countries, the multilateral
             development banks, other bilateral donors and the private sector, including a host
             of non-governmental groups.

             The core areas for the LAC regional program were:

                    •   Improving the health status of the region’s population,

                    •   Strengthening democratic institutions and processes,

                    •   Supporting the Free Trade Area of the Americas through regional
                        trade capacity building,

                    •   Improving market access to reduce poverty and economic inequality,

                    •   Protecting the region’s biodiversity and reducing the threat of global
                        climate change,

                    •   Advancing development cooperation opportunities in the hemisphere,

                    •   Supporting new environmental technologies and partnerships, and

                    •   Improving the quality of education.



                                                                                           6
             The LAC Bureau’s fiscal year 2004 proposed budget was approximately $80
             million for regional activities that contribute to strategic objectives being
             implemented by various organizations.

             The audit covered all activities currently funded by the Bureau for Latin America
             and the Caribbean as of the first day of fieldwork, March 22, 2004. Life of
             project funding for those activities totaled approximately $115 million. The audit
             also covered all non-U.S. based recipients who expended $300,000 or more in
             USAID funds in fiscal year 2002 and fiscal year 2003.



Audit        As part of its fiscal year 2004 audit plan, the Regional Inspector General/San
Objectives   Salvador performed this audit to answer the following questions:

                1. What regional activities were funded by the Bureau for Latin America and
                   the Caribbean?

                2. How was the Bureau for Latin America and the Caribbean managing its
                   regional activities and what responsibilities have been assigned to others?

                3. Did the Bureau for Latin America and the Caribbean ensure that financial
                   audits were conducted for its centrally funded awards to non-U.S. based
                   recipients in accordance with USAID policies?

             Appendix I describes the audit's scope and methodology.


 Audit       What regional activities were funded by the Bureau for Latin America and
 Findings    the Caribbean?

             Activities funded by the Bureau for Latin America and the Caribbean (LAC)
             supported eight strategic objectives: Health, Regional Democracy Initiatives,
             Market Access, Environmental, Program Development and Learning, Advancing
             Development Cooperation Opportunities in the Hemisphere, Conservation of
             Biological Resources, and Education and Training Improvement. A new strategic
             objective, Health Advancement, will begin in fiscal year 2004 to replace the
             current health objective. The strategic objectives and their activities are presented
             in Table 1. Following the table, each activity is summarized based on our
             discussions with the strategic objective team leaders in the LAC Bureau and our
             review of the Congressional Budget Justification. The implementing partners and
             financial status of the activities funded by the LAC Bureau are presented in
             Appendix III.




                                                                                            7
Table 1 – Summary of Activities Funded by LAC Bureau as of March 2004

  Strategic Objective/Activity                                    Funding to Date
  598-003 Health
      Maternal Mortality                                                  $3,539,032
      Vaccination                                                           7,678,617
      Integrated Management of Childhood Diseases                           5,533,023
      HIV/AIDS                                                                812,217
      Amazon Malaria                                                        5,906,000
      Infectious Diseases                                                   5,460,571
      Health Sector Reform                                                  5,406,733
      Family Planning                                                         458,688
      Technical Advisors and Program Support                                2,928,318
  598-005 Regional Democracy Initiatives
      Human Rights/Rule of Law                                              5,815,548
      Public Sector Legitimacy                                              8,850,411
      Pluralism and Citizen Participation                                   4,089,900
  598-017 Market Access
      Asset Related Constraints Reduced                                     7,094,934
      Business Related Constraints Reduced                                  1,501,972
  598-018 Environmental
      Trade and Environment                                                   665,000
      Water and Sanitation                                                    565,000
      Cleaner Production                                                      870,389
      Advisors                                                                105,000
  598-020 Program Development and Learning
      Various                                                               1,917,717
  598-021 Advancing Development Cooperation Opportunities in the Hemisphere
      Various                                                               2,493,064
  598-022 Conservation of Biological Resources
      Parks in Peril                                                      10,500,000
      Technical Advisors                                                    1,217,250
  598-023 Education and Training
      Improving the Environment for Education Reform                        7,444,773
      Improving the Skills of Teachers and Administrators                 15,350,000
      Improving the Relevance and Skills of the Workforce                   7,740,000
      Advisors                                                              1,071,698
  598-024 Health Advancement                                                    -
  Total                                                                 $115,015,855

Note: Amounts were not audited.

598-003 Health - Activities under this strategic objective included initiatives in
maternal mortality, vaccination, integrated management of childhood diseases,
HIV/AIDS, Amazon malaria, infectious diseases, health sector reform, family
planning, and funding for technical advisors and program support.

The maternal mortality initiative was primarily directed at Ministries of Health
and professional associations involved in obstetric care. Its aims were to prevent
obstetric complications and maternal deaths and to improve service delivery
quality. The prime implementing partners for this initiative were Pan American

                                                                                8
Health Organization (PAHO) and the University Research Corporation
International.

The vaccination initiative aimed to provide more sustainable and equitable
national vaccination programs. Activities included sponsoring experts to
recommend program improvements to reduce inequities in vaccine coverage,
monitoring new diseases, and identifying districts with low vaccination coverage.
The prime implementing partner for this initiative was PAHO.

The integrated management of childhood diseases initiative provided training and
technical assistance to decrease infant deaths and provided protocols for local
health workers to assist in early childhood development. The program also
increased the capacity to correct problems in child malnutrition. The prime
implementing partners for this initiative were PAHO and The Partnerships for
Child Health Care.

The HIV/AIDS initiative provided training courses to share knowledge and
information regarding prevention, treatment, and care. The prime implementing
partner for this initiative was TvT Associates.

The Amazon malaria initiative performed drug efficacy studies to use in updating
drug protocols for maximum effectiveness in reducing malaria. The initiative
conducted operations research on the effectiveness of malaria control measures.
It also expanded the database of region-specific materials on malaria control and
prevention. These activities were being carried out in collaboration with
USAID/Peru and USAID/Bolivia. The prime implementing partners for this
initiative were PAHO and the Centers for Disease Control and Prevention.

The infectious diseases initiative built on progress achieved under the
antimicrobial resistance initiative and the Hurricanes Mitch and George
reconstruction programs. Activities included supporting the development of
public health surveillance and field epidemiological investigation capacity with
respect to high priority public health areas such as maternal and child health,
HIV/AIDS, and infectious diseases. Funds were also used for training workshops
on tuberculosis drug management, epidemiology, and operations research. The
prime implementing partners were PAHO and the Centers for Disease Control
and Prevention.

The health sector reform initiative aimed to support efforts to regulate the quality
of health care, conduct comparisons of health sector reform trends and publish
lessons learned in health sector reform. This initiative included establishing a
framework that addressed factors for improving the overall impact of health
reforms, specifically with decentralization of pharmaceutical management. The
prime implementing partners for this initiative were PAHO and ABT Associates.

The family planning initiative focused on developing, evaluating and bringing to
market new and better products for family planning and the prevention of sexually

                                                                              9
transmitted infections. It aimed to expand the number of contraceptive methods
available by appropriately introducing or reintroducing methods into service
delivery settings. The prime implementing partners for this initiative were The
Population Council and Reproductive Health Operations Research.

598-005 Regional Democracy Initiatives - Activities under this strategic
objective included initiatives for human rights and rule of law, public sector
legitimacy, and pluralism and citizen participation.

The human rights and rule of law initiative encouraged respect for human rights
and observance of the rule of law. Activities included training of human rights
and justice reform advocates and promoting pilot projects to reduce crime and
violence. The prime implementing partners were the Inter-American Institute of
Human Rights and the U.S. Department of Justice.

The public sector legitimacy initiative aimed to document methodologies for
implementing anti-corruption strategies to increase internal controls, improve
transparency, and expand accountability. This initiative assisted regional
associations of electoral commissions to improve the independence of electoral
systems and to promote political reform. The initiative also aimed to improve
local government capacity in financial management, citizen participation, and
knowledge management. The prime implementing partners were Casals and
Associates, and International City and County Management Association.

The pluralism and citizen participation initiative concentrated on sustaining
citizen participation for achieving good governance. Activities focused on
advancing a culture of accountability through citizen participation, transparency,
and pluralism. The prime implementing partner was Partners of the Americas.

598-017 Market Access - Activities under this strategic objective included
initiatives to reduce asset-related and business-related constraints.

The initiative to reduce asset-related constraints performed assessments and
analysis and conducted regional workshops to improve property rights. The
program supported activities to decrease transaction costs for the transfer of
remittances and promoted the investment of remittances by encouraging finance
institutions to expand access to the private sector. The prime implementing
partners were Accion International and the U.S. Department of Agriculture.

The initiative to reduce business-related constraints aimed to facilitate
information on the benefits of free trade. The program improved feedback
mechanisms for the private sector and civil society into the negotiation process for
free trade. The prime implementing partner was CARANA Corporation.

598-018 Environmental - Activities under this strategic objective included
promoting trade and environment, improving water and sanitation services,
promoting cleaner production, and providing funding for advisors.

                                                                             10
The trade and environment initiative supported activities that promoted replicable
market-based models for improved natural resource management. The initiative
also developed a methodology for national environmental assessments of the
potential impact of proposed multilateral trade agreements in the Americas. The
prime implementing partner was the Organization of American States.

The water and sanitation services initiative aimed to identify suitable and
replicable management models for water supply and sanitation services in smaller
towns and rural areas to complement and support the tremendous regional
movement towards decentralization. The prime implementing partner was Camp
Dresser & McKee International, Inc.

The promotion of cleaner production initiative supported the adoption of cleaner
production technologies in the LAC region through activities such as discussions
with the private sector to create a regional cleaner production center and a waste
exchange model. The prime implementing partner was PA Government
Associates, Inc.

598-020 Program Development and Learning (PD&L) - PD&L was only a
strategic objective from a programming point of view. PD&L resources
supported a wide variety of activities, including studies, analyses, assessments,
and evaluations. Included under PD&L were program design, development, and
learning efforts for proposed activities and/or programs that were under
consideration but did not yet fall within an existing strategic plan or objective.
Examples included the studies and analyses needed to develop a new country
strategy, the design of a new program, or the evaluation of a completed program.
Prior to determining implementing partners, the strategic objective team leaders
identified specific tasks. The selected implementing partners were the Academy
for Education Development; John Snow, Inc.; Futures Group; LTG Associates,
Inc.; Inter-American Development Bank; and Norma Jean Parker.

598-021 Advancing Development Cooperation in the Hemisphere (ADCOH) -
ADCOH was only a strategic objective from a programming point of view. Once
a determination was made on who would implement the program, the funds and
management responsibilities were transferred or allocated to a LAC regional
program, a different bureau or to a mission. Included in ADCOH were special
initiatives that responded to foreign policy issues but did not fall under an
approved strategic plan. The implementing partners selected were Alfalit
International Inc., United Negro College Fund, St. Michaels College and the
Academy for Education Development.

598-022 Conservation of Biological Resources - Activities under this strategic
objective included the Parks in Peril program and funding for technical advisors.

The Parks in Peril initiative strengthened the conservation capacity of selected
threatened parks and reserves with an emphasis on trans-border and marine

                                                                           11
ecosystems. Activities also included supporting multi-site strategies that
promoted national and regional systems of conservation areas and strategic public
and private conservation alliances. The prime implementing partner was The
Nature Conservancy.

598-023 Education and Training Improvement - Activities under this strategic
objective included improving the environment for education reform, the skills of
teachers and administrators, and the relevance and skills of the workforce.

The initiative to improve the environment for education reform worked to
improve the availability of education data to facilitate effective parental and
community involvement. The prime implementing partners were the Inter-
American Dialogue and Creative Associates.

The initiative to improve skills of teachers and administrators provided training
and technical assistance under the Centers of Excellence in Teacher Training.
Activities also included developing and testing new materials and conducting
research on reading methodologies. The prime implementers of this initiative
were the Universidad Peruana Cayetano and the University of the West Indies.

The initiative to improve the relevance and skills of the workforce recruited new
participants into the Cooperative Association of States for Scholarships program.
This program offered technical skills training that would help participants gain
employment upon return to the participants’ home country. The prime
implementing partner was Georgetown University - Center for Intercultural
Education and Development.

598-024 Health Advancement - This strategic objective is expected to be
implemented in fiscal year 2004 and will support regional activities that will keep
decision makers better informed and increase advocacy and policy dialogue with
decision makers at all levels from Ministries of Health to local communities. As of
March 2004, no funding has been authorized. Total budgeted for the strategic
objective is $6,400,000 for fiscal year 2004.

How was the Bureau for Latin America and the Caribbean managing its
activities and what responsibilities for management have been assigned to
others?

The Bureau for Latin America and the Caribbean (LAC) managed and monitored
its activities through four phases: planning, awarding, implementing, and
reporting/monitoring. Responsibilities for management generally have been
assigned to team leaders and Cognizant Technical Officers (CTOs) for each
strategic objective with the assistance of other bureaus, implementing partners,
and independent contractors as discussed below.

Planning - As part of the planning phase of the management and monitoring
process, the LAC Bureau submitted a Program Budget for the Agency’s annual

                                                                            12
budget and program review.           The budget submission included detailed
descriptions of the Bureau’s program and budget requests at various levels by
program account, operating expense, and staff. It was used for the preparation of
the Agency Budget Submission which became the basis for the USAID
Congressional Budget Justification.        Through submission of the Budget
Justification, the Bureau obtained the approved funding to carry out activities and,
when necessary for budgetary adjustments, submitted a Congressional
Notification.

Within the LAC Bureau, under each strategic objective and accompanying
intermediate results, Activity Approval Documents (AADs) were developed and
approved within the Bureau and by the Office of the General Counsel. Each
strategic objective team was responsible for identifying activities related to the
results of the AADs and for ensuring that individual activities in the Bureau
coincided with the overall Bureau strategy. In developing all LAC Bureau
activities, the strategic objective teams consulted with LAC missions and regional
and global Bureaus located in Washington, as necessary. They also consulted
implementing partners, if available, for input into the design of the activities to be
undertaken.

Awarding - As part of the awarding process, the awards were competed (unless
supported by documentation approving a non-competitive award) and signed by
USAID’s Bureau for Management, Office of Procurement. LAC missions also
provided essential feedback on bidding organizations’ past performance. For
awards to Public International Organizations and to other U.S. government
agencies under authority of section 632 (b) of the Foreign Assistance Act of 1961,
the Assistant Administrator of LAC used his delegated authority to sign awards.

Implementing – Third party organizations were the primary participants in the
implementing process. The implementing organizations were required to perform
the day to day functions necessary to achieve the objective. They managed and
monitored the daily activities under the supervision of a CTO and were required
to submit progress reports, quarterly reports, and annual financial reports. In
consultation with the CTO, the implementing partners developed work plans
describing in detail the activities to be undertaken. In addition, the CTOs in many
cases were in frequent contact with the LAC missions for consultation and advice
on the progress and/or problems of the implementing activities. In a few cases,
the LAC missions implemented the activities themselves and served as CTOs for
the project.

Reporting/Monitoring - As part of the reporting/monitoring process, each
strategic objective in the LAC Bureau was assigned a team leader who was
responsible for the overall managing and monitoring for the team’s strategic
objective, including the supervision of the CTOs. In some cases, the team leader
was also the CTO for the activity. The CTOs were certified and assigned by the
Office of Procurement and received general and technical direction from the team
leader. They were assigned specific technical and program management

                                                                               13
responsibilities within the portfolio, responsibilities such as approving travel,
monitoring accruals, handling personnel issues, providing technical advice to
implementers, providing input, and overseeing the activities as they relate to
obtaining the results/objectives of the activities. They were also responsible for
reviewing all reports (e.g., progress reports and quarterly and annual financial
reports) submitted by the implementers. Those activities, for which the LAC
Bureau provided field support, were managed by CTOs of the Bureaus from
which the funds had been transferred. Also, as part of management oversight, the
director of the Bureau under the Regional Sustainable Development (RSD) Office
conducted annual portfolio reviews for all activities managed by LAC/RSD. This
was an important mechanism for keeping RSD management involved in the
overall monitoring of the LAC/RSD regional program and provided the
opportunity to raise any issues that required a decision or corrective action that
had not already been addressed.

The team leaders and CTOs also worked closely with other offices within both the
LAC Bureau and other bureaus. In some cases, the strategic objective teams had
independent contractors who performed monitoring and evaluation activities.
These contractors, experts in data development and quality control, also assisted
the team with their reporting requirements. The teams were responsible for
reporting activities through the Annual Report and a variety of other USAID
reporting requirements.

The team leaders and the CTOs managed and monitored LAC Bureau activities
through the following mechanisms:

       •      Data Quality Assessments

       •      Work Plans

       •      Performance Monitoring Plans

       •      Progress and Financial Reports

       •      Field Visits

Data Quality assessments were used by the strategic objective team leaders to
determine the appropriateness and validity of reporting indicators. As previously
stated, independent contractors were sometimes used to assist the teams in
conducting and maintaining data quality and conducting assessments. To verify
the data quality, the teams also examined the consistency among various data
sources independently of the contractor.

Work plans, as previously stated, were developed by the implementer and
approved by USAID. The teams used these plans extensively to manage
activities, especially for cooperative agreements and grants. Work plans were
used to provide detailed plans of activities and develop progress and success
                                                                           14
benchmarks for the upcoming year. The work plans also served to inform the
teams and the missions of proposed activities. In some instances, LAC missions
were also consulted in the formulation of the work plan. The responsible CTO
reviewed the work plans to ensure that they were consistent with LAC and
mission objectives and made suggestions for modification.

Performance Monitoring Plans were prepared by the strategic objective teams.
The plans identified the performance indicators, the source of the data to be
collected, the approach for reviewing the data, and the person responsible for
collecting and reviewing the information for each performance indicator. The
plans were also used to assess and report progress in achieving objectives and to
ensure that lessons learned and program successes were captured. Through the
monitoring plans the CTOs were able to track progress toward the strategic
objective and intermediate results level indicators.

The strategic objective teams regularly used progress reports and financial reports
to monitor the activities. As previously stated, the implementers were required to
submit progress, quarterly, and annual financial reports which were then used by
the teams to prepare and record quarterly accruals and assess timing for
preparation of project close-outs. Those activities for which the LAC Bureau
provided field support, the implementing partners submitted the progress and
financial reports to the CTO of the bureau for which the funds had been
transferred as well as to the LAC Bureau.

Field visits were an important aspect of monitoring and supervising the
performance of the implementing partners. However, due to funding constraints,
very seldom did strategic objective teams participate in field visits. The field
visits were often performed by the missions on behalf of the LAC Bureau, and the
results of the visits were reported to the LAC Bureau.

Did the Bureau for Latin America and the Caribbean ensure that financial
audits were conducted for its centrally funded awards to non-U.S. based
recipients in accordance with USAID policies?

The Bureau for Latin America and the Caribbean did not ensure that financial
audits were conducted for its centrally funded awards to non-U.S. based recipients
in accordance with USAID policies.

As of March 22, 2004, six non-U.S. based organizations required audits to be
conducted in accordance with the Guidelines for Financial Audits Conducted by
Foreign Recipients (Guidelines) published by the Office of Inspector General
(OIG). The following paragraphs discuss the audits that have not been conducted
and the audit reports that have not been submitted to the OIG.




                                                                            15
Financial Audit Policies Were Not Followed

According to the Automated Directive System 303.3.c, “Grants and Cooperative
Agreements to Non-Governmental Organizations,” the CTO is responsible for
ensuring that USAID exercises prudent management over specific assistance
awards by monitoring and evaluating the recipient and the recipient’s
performance during the award. In order to facilitate the attainment of program
objectives, the CTO should review and analyze all performance and financial
reports as well as verify timely delivery of reports. Additionally, the CTO should
ensure compliance with the terms and conditions of the award.

Furthermore, according to the Guidelines, final audit reports must be submitted to
the Regional Inspector General (RIG) for review and release. The RIG must
receive the audit report no later than nine months after the end of the audited
period. Table 2 below summarizes the audits conducted and audit reports
submitted to the OIG.

Table 2 - Required Audits Conducted and Submitted to OIG

                                          Audit
                                   Conducted/Contracted               Submitted
         Name of Organization      FY 2002 and FY 2003                 to OIG
 Inter-American Institute of Human         Yes                           No
 Rights – Promoting Human Rights
 Inter-American Institute of Human         No                             No
 Rights – Victims of Torture
 FEMICA                                    Yes                            No
 University of the West Indies             No                             No
 Universidad Peruana                       No                             No
 Universidad Pedagogica                    No                             No

As the table above shows, of the six foreign nonprofit organizations we reviewed,
four did not have a fund accountability statement audit for fiscal year 2002 and
had not contracted for an audit for fiscal year 2003. Moreover, the LAC Bureau
did not submit the two audits that were conducted as required to the OIG.

While the LAC Bureau received two audit reports, the Bureau had overlooked
obtaining audit reports from the four organizations mentioned above as well as
submitting the two audit reports it had received to the OIG. Not conducting
audits and not submitting audit reports to the OIG for organizations receiving
USAID funds could result in the misuse of USAID funds by the recipient
organizations.




                                                                           16
                    Recommendation No. 1: We recommend that the Bureau for
                    Latin America and the Caribbean: (a) send the two audit
                    reports received to the Office of Inspector General and (b)
                    obtain fund accountability audit reports for the four
                    organizations that have not conducted audits for fiscal years
                    2002 and 2003 and submit those audit reports to the Office of
                    Inspector General.




Management   In responding to our draft report, the LAC Bureau disagreed with part of our
             recommendation and had some factual corrections. Based upon further research,
Comments     we agreed with its comments and made the appropriate changes to the final report.
and Our      The LAC Bureau subsequently agreed with the report, including the revised
Evaluation   recommendation, and has already taken action on part A of the recommendation.
             Part A of the recommendation is closed upon issuance of this report. A
             management decision was made for part B of the recommendation. The
             Mission’s comments are included in their entirety in Appendix II.




                                                                                       17
This page intentionally left blank.




                                      18
                                                                                      Appendix I


Scope and     Scope
Methodology
              We audited the regional activities administered by USAID’s Bureau for Latin
              America and the Caribbean (LAC) in accordance with generally accepted
              government auditing standards at USAID/Washington from March 22, 2004 to
              April 2, 2004.

              The audit focused on (1) what regional activities were funded by the Bureau for
              Latin America and the Caribbean; (2) how the Bureau for Latin America and the
              Caribbean managed its regional activities and what responsibilities were assigned to
              others; and (3) whether the Bureau for Latin America and the Caribbean ensured
              audits were conducted for its centrally funded awards to non-U.S. based recipients in
              accordance with USAID policies.

              In conducting our audit, we assessed the effectiveness of the Bureau for Latin
              America and the Caribbean’s management controls designed to ensure that all
              required audits of non-U.S. based recipients were conducted. Management
              controls included maintaining a list of all required audits and forwarding audit
              reports to the Office of Inspector General. As objectives one and two were
              descriptive in nature, our assessment of management controls was only applied to
              objective three.

              For objectives one and two, the audit covered all activities currently funded by the
              Bureau for Latin America and the Caribbean as of the first day of fieldwork,
              March 22, 2004. Life of project funding for those activities totaled approximately
              $115 million.

              For objective three, the audit covered all non-U.S. based recipients who expended
              $300,000 or more in USAID funds in fiscal year 2002 and fiscal year 2003.

              Our audit did not include reviewing the quality of the audit reports.

              Methodology

              To answer audit objectives one and two, we obtained information regarding the
              Bureau’s organization, staffing, and responsibilities. We interviewed the team
              leaders of each strategic objective team, as well as Cognizant Technical Officers,
              and other LAC Bureau officials.            We reviewed financial reports, the
              Congressional Budget Justification, and other relevant documents.

              To answer audit objective three, we reviewed audit reports of all non-U.S.
              organizations requiring audits for fiscal year 2002 and fiscal year 2003. There
              were six organizations in total.


                                                                                            19
For objectives one and two, we did not express an opinion as both objectives were
descriptive in nature.

In determining the significance of our findings, we applied the following criteria
for issuing an opinion to objective three:

       •   An unqualified opinion would be issued if all audits required were
           conducted and submitted to the Office of Inspector General of all
           fiscal year 2002 and fiscal year 2003 recipients selected.

       •   A qualified opinion would be issued if 95 percent to 99 percent of the
           audits required were conducted and submitted to the Office of
           Inspector General of all fiscal year 2002 and fiscal year 2003
           recipients selected.

       •   An adverse opinion would be issued if less than 95 percent of the
           audits required were conducted and submitted to the Office of
           Inspector General of all fiscal year 2002 and fiscal year 2003
           recipients selected.




                                                                           20
                                                                                    Appendix II


Management
Comments

                                        MEMORANDUM
        DATE:         May 24, 2004

        TO:           Acting RIG/San Salvador, John Vernon

        FROM:         Director LAC/RSD, Cecily Mango

        SUBJECT:      Response to audit finding for the regional activities administered by the
                      Bureau for Latin America and the Caribbean (Report No. 1-527-04-00X-
                      P)

        Thank-you for sending us your draft report on the subject audit. We have reviewed it
        carefully and appreciate the opportunity to respond to the audit recommendation and
        propose some factual corrections.

        A)     USAID Response to Audit Recommendation

        The recommendation states that the Bureau for Latin America and the Caribbean should:

        1)     Obtain fund accountability audit reports for the four organizations who have not
               conducted audits for fiscal years 2002 and 2003. According to Table 2 on Page
               15 of your draft report, the organizations are; the Inter-American Institute of
               Human Rights – Victims of Torture, the University of the West Indies, the
               Universidad Peruana, and the Universidad Pedagogica.

        2)     Submit those audit reports to the Office of the Inspector General.

        3)     Establish a procedure to ensure that all required audit reports are received from
               USAID’s Bureau for Management/Office of Procurement.

        With regard to points (1) and (2) above, attached (Appendix 1) is the fund accountability
        statement produced by KPMG for the Inter-American Institute of Human Rights for the
        period of 15 months ending December 31, 2003 for OIG review and release. The report
        is dated April 16, 2004.

        Also attached (Appendix 2) is a financial status report as of December 31, 2002 showing
        that Universidad Peruana expended $141,185.57 in Federal funds from September 26,
        2002 (the start of the agreement) to December 31, 2002. As this amount is less than
        $300,000, a fund accountability report for FY 2002 was not required. The fund
        accountability report for Universidad Peruana covering the period Sept. 26, 2002 through
                                                                                           21
December 31, 2003 is currently being prepared and we anticipate delivering it to the OIG
for review and release in August 2004 which is before the nine month timeframe laid out
in the “Guidelines for Financial Audits Contracted by Foreign Recipients.”

The fiscal year for the Universidad Pedagogica Nacional Francisco Morazan runs from
October 1st to September 30th. The agreement was awarded in September 2002 and thus
the first financial status report will be for the period ending on September 30, 2003.
Through September 30, 2003, $851,079.16 was expended. A financial status report is in
the process of being prepared and we anticipate submitting it to the OIG for review and
release by the end of June 2004. This is within the timeframe established in the
“Guidelines for Financial Audits Contracted by Foreign Recipients.”

With regard to the University of the West Indies (UWI), its fiscal year runs from August
1st to July 31st. The agreement to UWI was awarded on September 26, 2002. From
September 26, 2002 to July 31, 2003, $396,525 in Federal funds was expended which
requires an audited financial status report. On May 13, 2004, a request for proposal was
sent to audit firms to bid on a financial status report that would cover the period
September 26, 2002 through July 31, 2004. Work is expected to begin on July 1, 2004
and be completed in September of this year.

At this time, we are also enclosing the following audited financial status reports to the
OIG for review and release:

-      Inter-American Institute of Human Rights – Project “Psychological Support for
       Victims of Torture” for the period of 15 months ending December 31, 2003
       (Appendix 3), and

-      FEMICA for the period ending December 31, 2002 (Appendix 4).

Based on the above information, we would appreciate you closing points (1) and (2) of
your recommendation.

With regard to point (3), our reading of the ADS clearly shows that the Bureau for Latin
America and the Caribbean is not responsible for establishing a procedure for the six
organizations in question to ensure that all required audit reports are received from
USAID’s Bureau for Management/Office of Procurement.

This is because ADS 591.3.4.2 provides that “…M/OP/PS/CAM must maintain an
inventory of foreign organizations receiving centrally funded contracts or grants issued
by M/OP, including those in non-presence countries, and ensure that required audits are
conducted. Regional and Central Bureaus must maintain an inventory of foreign
organizations receiving centrally funded contracts or grants not issued by M/OP,
including those in non-presence countries, and ensure that required audits are
conducted…”

Our research shows that the agreements with the six organizations listed in Table 2, page
15 of the report were issued by M/OP rather than the LAC Bureau. Supporting

                                                                                  22
documentation is attached as Appendix 5. Therefore, responsibility for ensuring that
audits are conducted rests with M/OP. Thus, the fourth paragraph on page 5 and the
narrative on pages 15 and 16 should be changed to reflect the aforementioned
requirements of ADS 591.3.4.2. The recommendation should also be modified to show
that the Bureau for Latin America and the Caribbean is not responsible for part (c).

B)     Proposed Factual Corrections

In reviewing the subject audit, there were a number of factual errors that we would like to
correct. They include:

1)     The first paragraph on page five (and throughout the entire document) refers to
       the audit as an audit of LAC Bureau activities and how they are managed. The
       audit was, in fact, limited to LAC Regional activities managed by LAC/RSD and
       the LAC Strategy and Program Office (SPO). This needs to be corrected to
       reflect the audit of the LAC Regional program as managed by RSD and SPO
       only.

2)     The dollar figure in the last sentence of page 6 should be $80 million (per the FY
       2005 CBJ) and again, the reference to LAC Bureau’s program should be corrected
       to read LAC Regional.

3)     The table of activities on page 8 and the description of SO 598-018 on page 10
       omit any mention of the sub-sector “Trade and Environment.” This should be
       added to both.

4)     The description of SO 598-023 on page 11 makes no mention of Georgetown
       University’s CASS program. This should be added since it is such a large part of
       that SO’s budget.

5)     Re the last paragraph on page 12 :

       (a)     Add to end of the first sentence the following: “unless supported by
               documentation approving a non-competitive award.”

       (b)     As stated, the second sentence of this paragraph is not accurate as LAC
               Bureau management does not meet with representatives from possible
               implementing organizations to determine the appropriate organization to
               implement the activities. Team members at times conduct this function.
               In addition, it should be noted that implementing organizations are also
               found through the competitive bidding process. We recommend that this
               sentence be deleted.

       (c)     Add at the end of that paragraph the following: “For awards to Public
               International Organizations and to other U.S. government agencies under
               authority of FAA 632(b), the AA/LAC used his delegated authority to sign
               awards.

                                                                                    23
6)   On page 13 under Reporting/Monitoring, it should be noted that as part of
     management oversight, the Director of RSD conducts annual portfolio reviews for
     all activities managed by LAC/RSD. This is an important mechanism for
     keeping RSD management involved in the overall monitoring of the LAC/RSD
     Regional program and provides an opportunity to raise any issues that require a
     decision or corrective action that have not already been brought to light.

7)   In the second paragraph of page 14, in the last sentence, delete the phrase “…task
     order, previous…” as work plans are also reviewed for procurement mechanisms
     other than task orders.




                                                                                24
                                                                                                Appendix III

                       Activities Funded by LAC Bureau as of March 2004

Strategic Objective/Activity/Implementer                                                   Funding To Date ($)
598-003 Health
Maternal Mortality
                                  Pan American Health Organization                                    2,533,032
                                  University Research Corp. Intl.                                     1,006,000
Vaccination
                                  Pan American Health Organization                                    7,678,617
Integrated Management of Childhood Diseases
                                  Pan American Health Organization                                    4,299,864
                                  The Partnership for Child Health Care                               1,233,159
HIV/AIDS
                                  TvT Associates                                                       812,217
Amazon Malaria
                                  Pan American Health Organization                                    4,291,000
                                  Centers For Disease Control and Prevention                          1,115,000
                                  National Academy of Sciences                                          100,000
                                  Management Sciences For Health                                        220,000
                                  US Pharmacopeial Convention Inc.                                      180,000
Infectious Diseases
                                  Pan American Health Organization                                    2,931,500
                                  Centers For Disease Control and Prevention                          1,130,000
                                  Management Sciences For Health                                        954,571
                                  Tuberculosis Coalition for Technical Assistance                       444,500
Health Sector Reform
                                  Pan American Health Organization                                    3,100,700
                                  ABT Associates Inc.                                                   985,033
                                  Management Sciences For Health                                        970,000
                                  University Research Corp. Intl.                                       351,000
Family Planning
                                  Reproductive Health Operations Research                              248,844
                                The Population Council                                                 209,844
Technical Advisors and Program Support
                                Center For Development and Population Activities                      1,440,000
                                The Johns Hopkins University                                            735,000
                                LTG Associates Inc.                                                     400,318
                                Jorge Scientific Corp.                                                  180,000
                                Public Health Institute                                                 165,000
                                U.S. Government Services Administration                                   8,000
598-005 Regional Democracy Initiatives
Human Rights/Rule of Law
                                Inter-American Institute of Human Rights                              3,451,148
                                Department of Justice                                                 1,250,000
                                Justice Studies Center of the Americas                                  710,000
                                Pan America Health Organization                                         206,000
                                Organization of American States - Trafficking in Persons                198,400




                                                                                                        25
    Public Sector Legitimacy
                                                    Casals and Associates                                    4,608,162
                                                    International City and County Management Association     2,484,049
                                                    Federation of Central American Municipalities            1,500,000
                                                    Academy For Educational Development                        120,000
                                                    Mitchell A. Selingson                                       75,000
                                                    Steve Metzger                                               63,200
    Pluralism and Citizen Participation
                                                    Partners of the Americas                                 4,089,900
    598-017 Market Access
    Asset Related Constraints Reduced
                                                    ACCION International                                     2,415,452
                                                    U.S. Department of Agriculture                           1,993,239
                                                    Chemonics                                                1,670,115
                                                    MICRORATE, INC.                                            300,000
                                                    Pan American Development Foundation                        300,000
                                                    InterAmerican Dialogue                                     216,128
                                                    World Bank                                                 200,000
    Business Related Constraints Reduced
                                                    CARANA Corporation                                      1,313,8432
                                                    UNDP                                                       148,129
                                                    Organization of American States                             40,000
    598-018 Environmental
    Trade and Environment
                                                    Organization of American States                           665,000
    Water and Sanitation
                                                    Camp Dressler                                             565,000
    Cleaner Production
                                                    PA Government Associates                                  731,399
                                                    PADCO                                                     138,990
    Advisors
                                         U.S. Department of Agriculture                                       105,000
    598-020 Program Development and Learning
                                         Academy for Education Development                                    831,422
                                         John Snow, Inc.                                                      598,000
                                         Futures Group                                                        277,795
                                         LTG Associates Inc.                                                  141,000
                                         Inter-American Development Bank                                       50,000
                                         Norma Jean Parker                                                     19,500
    598-021 Advancing Development Cooperation Opportunities in the Hemisphere
                                         Alfalit International, Inc.                                         1,846,064
                                         United Negro College Fund                                             400,000
                                         St. Michaels College                                                  150,000
                                         Academy for Education Development                                      97,000
    598-022 Conservation of Biological Resources
    Parks in Peril
                                         The Nature Conservancy                                             10,500,000
    Technical Advisors
                                         U.S. Department of Agriculture                                      1,067,250
                                         U.S. Department of Agriculture – Forest Service                       150,000


2
    This amount also includes funding for projects under the Assets Related Constraints Reduced activity.


                                                                                                              26
    598-023 Education and Training
    Improving the Environment for Education Reform
                                           Inter-American Dialogue                                                                              3,559,974
                                           Creative Associates                                                                                   900,0003
                                           Aquirre International                                                                               1,684,7994
                                           Academy for Educational Development                                                                  1,300,000
    Improving the Skills of Teachers and Administrators
                                           Universidad Pedagogica Nacional Francisco Morazan                                                    6,100,000
                                           University of the West Indies                                                                        4,000,000
                                           University Peruana Cayetano Heredia                                                                  3,000,000
                                           International Medical Services for Health, Inc.                                                      2,250,000
    Improving the Relevance and Skills of the Workforce
                                           Georgetown University Center for Intercultural Education
                                           and Development                                                                                      7,740,000
    Advisors
                                           Center For Development and Population Activities                                                      860,000
                                           U.S. Department of Agriculture                                                                        211,698
    598-024 Health Advancement5                                                                                                                     -
    Total Funding To Date                                                                                                                    115,015,855

Note: Amounts were not audited.




3
    This amount also includes funding for projects under the Improving the Skills of Teachers and Administrators activity.
4
    This amount also includes funding for projects under the Improving the Skills of Teachers and Administrators activity.
5
    As stated previously, this strategic objective will be implemented in fiscal year 2004. As of March 2004, no funding has been authorized. Amount
    budgeted for this strategic objective in fiscal year 2004 is $6,400,000.



                                                                                                                                                  27
